WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5286

Tomas Rodriguez Infante

v.

Michael Martel, Warden, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date: August 10, 2020
(Type or print) Name

Herbert S. Tetef
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

California Attorney General's Office

Address 300 South Spring Street, Suite 1702
City & State Los Angeles, CA
Phone (213) 269-6003

Zip 90013
Email

herbert.tetef@doj.ca.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Mark R. Drozdowski, 321 East 2nd Street, Los Angeles, CA 90012

